U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




                          United States
           Patent and Trademark Office

                        Patent End-to-End
                   Planning and Oversight
                   Need to Be Strengthened  
               to Reduce Development Risk 

                      Final Report No. OIG-11-033-A
                                  September 29, 2011




              FOR PUBLIC RELEASE



                       Office of Audit and Evaluation
                                                       UNITED STATES DEPARTMENT OF COMMERCE
                                                       Office of Inspector General
                                                       Washington, D.C. 20230




September 29,2011

MEMORANDUM FOR:              David Kappos
                             Under Secretary of Commerce for Intellectual Property and
                             Director of the Unite Stat s Patent and Trademark Office

                                                               ~·~
FROM: 	                      Al len Crawley
                             Assistant Inspector General for Systems Acquisition
                             and IT Security

SUBJECT: 	                   Patent End-to-End Planning and Oversig ht Need to Be
                             Strengthened to Reduce Development Risk
                             Final Report No. OIG-11-033-A

Attached is our final audit report on USPTO 's development of the Patent End-to-End (PE2E)
system. Our audit objectives were to assess USPTO 's readiness to success fully manage the PE2E
project by determining the adequacy of its acquisition process and methodologies as well as the
project' s governance. We found that improvements need to be made to PE2E's long-term
planning, acquisition strategy, and development oversight to avoid duplicating problems USPTO
has had with past automation efforts.

In this report, we have summarized USPTO ' s comments on our draft report and have included
the formal response as an appendix. We will post this report on OIG 's website pursuant to
section 8L of the Inspector General Act of 1978, as amended.

Under Department Administrative Order 2 13-5, you have 60 calendar days from the date of this
memorandum to submit an audit action plan to us. The plan should outline the actions you
propose to take to address each audit finding and recommendation.

We would like to extend our thanks to USPTO for the courtesies shown to us during our
fieldwork. Please direct any inquiries regarding this report to me at (202) 482-1855 or Angela
Hoffman, Director, Systems Acquisition and Development, at (202) 482-5337, and refer to the
report title in all correspondence.

Attachment

cc: 	 Simon Szykman, Chief Information Officer
      John B. Owens, II, Chief Information Officer, USPTO
      Robert L. Stoll, Commissioner for Patents, USPTO
      Anthony P. Scardino, Chief Financial Officer, USPTO
      David Landrith, Portfolio Manager Patents, USPTO
      Welton E. Lloyd, Jr., Audit Liaison, USPTO
                                 Report In Brief
                                        U.S. Department of Commerce Office of Inspector General
                                                           September 29, 2011


Why We Did This Review           U.S. Patent and Trademark Office
As part of the Office of
Inspector General’s FY 2010      Patent End-to-End (PE2E) Planning and Oversight
audit plan, we conducted an      Need to Be Strengthened to Reduce Development Risk
audit of the PE2E project,       (OIG-11-033-A)
USPTO’s effort to develop a
fully integrated, automated      What We Found
patent process. Our audit
objectives were to assess        USPTO has developed adequate short-term plans for the first segment of PE2E to
USPTO’s readiness to suc-        be released; however, it began development of PE2E without developing a high-
cessfully manage the PE2E
project by determining the
                                 level prioritized list of requirements based on business and technical value for the
adequacy of its acquisition      entire project. In addition, although USPTO has planned for long-term technical
process and methodologies as     needs, such as a hardware and software infrastructure that will be compatible with
well as the project’s gover-     future PE2E development, it has not defined a high-level technical model of ser-
nance.                           vices to be implemented for the entire project. Unless USPTO improves its current
Background                       long-term planning, it will not have a roadmap that guides the project’s building
                                 and deployment strategies. This could result in unnecessary rework and delays.
In December 1982, USPTO
submitted to Congress an         In mid-May, USPTO approved an acquisition plan for obtaining contracting re-
automation master plan for       sources to augment its technical experience and project staffing for PE2E, but the
a “paperless” office. Since      plan does not adequately detail its strategies for acquiring resources or how USPTO
then, the agency has spent       will manage future acquisition risks. Not adequately defining the acquisition strat-
over $1 billion on this ef-      egy to obtain this support could potentially delay the project’s successful progres-
fort and has made progress
developing some automated        sion.
capabilities, but it has not     USPTO has established oversight reviews and implemented a governance structure
achieved its goal of a fully     for PE2E. However, it has not established key milestones and conditions for special
integrated, automated patent
                                 reviews, and would benefit from independent expert advice as input into milestone
process. Past automation ef-
forts have resulted in a com-    reviews. USPTO should reinforce these oversight processes to better ensure that the
bination of some four dozen      project achieves its mission goals.
aging systems that, according
to USPTO, are difficult to
maintain, unable to meet the
demands of a growing user        What We Recommended
community and document
                                 We recommended that the USPTO Director direct the appropriate USPTO officials to
database, and cumbersome
for patent examiners to use.    1. improve PE2E planning by developing a description and schedule of releases
                                   based on prioritized high-level requirements for the entire project and high-
PE2E is USPTO’s latest ef-
fort to improve, integrate, and    level designs for the project’s service architecture;
automate its patent process.    2. update the current acquisition plan so that it describes the strategy for acquir-
The project is one of the          ing contracting resources, including overall approach, processes, means to
most ambitious and complex         motivate contractor performance, and risk management; and
multi-year IT investments
USPTO has undertaken in          3. improve oversight of PE2E by establishing a key milestone oversight review
several years, and it supports      schedule, criteria for evaluating project progress at oversight reviews, and
the agency’s strategic goal of      thresholds for convening special oversight reviews, as well as seeking inde-
optimizing patent quality and       pendent expert advice on technical and project management for milestone
timeliness.
                                    reviews.
U.S. Department of Commerce                                                                                                      Final Report

Office of Inspector General                                                                                                September 29, 2011 



                                                                  Contents


Introduction..................................................................................................................................... 1 

Background..................................................................................................................................... 2 

Findings .......................................................................................................................................... 4 

   I.     USPTO Has Started PE2E Development Without Sufficient Long-Term Planning ........... 4 

        A. PE2E Lacks Prioritized, High-Level Requirements in Its Product Backlog .................... 4 

        B. PE2E Lacks a High-Level Services Model ...................................................................... 4 

   II. USPTO’s Acquisition Strategy for PE2E Is Not Adequately Defined ................................ 5 

   III.      USPTO Should Improve Oversight of PE2E Development............................................. 5 

        A. Key Milestones and Conditions for Special Reviews Have Not Been Established ......... 6 

        B. PE2E Oversight Would Benefit from Independent Expert Input to Milestone Reviews . 6 

Summary of Agency Comments and OIG Response...................................................................... 8 

Appendix A: Objectives, Scope, and Methodology ....................................................................... 9 

Appendix B: Response to OIG Draft Report ................................................................................ 10 

U.S. Department of Commerce                                                               Final Report

Office of Inspector General                                                         September 29, 2011 



                                           Introduction


The United States Patent and Trademark Office (USPTO) is the sole federal agency that grants
patents and registers trademarks. Patents, the focus of this audit, account for the majority of
USPTO’s business (see table 1 for FY 2010 patent statistics). Patents secure for inventors
exclusive rights to their discoveries for a limited time in
exchange for the public disclosure of an invention, which                   Table 1.
contributes to the vitality of the United States and the global        Patent Statistics
economy.                                                                     FY2010
USPTO receives patent applications from inventors, and 
           Patent Examiners             6,225
patent examiners determine whether to grant or deny the 
          Patents Issued         233,127
patents based on their uniqueness and usefulness (see table 2 
    Patent Applications
for a description of the patent process). 
                                               509,367
                                                                   Filed
As part of the Office of Inspector General’s FY 2010 audit         Patent Application
                                                                                          726,331
                                                                   Backlog
plan, we conducted an audit of the Patent End-to-End
                                                                   Source: USPTO FY2010 Performance
(PE2E) project, USPTO’s effort to develop a fully
                                                                   and Accountability Report.
integrated, automated patent process. Our audit objectives,
scope, and methodology are described in appendix A.

PE2E is one of the most ambitious and complex multi-year IT investments USPTO has
undertaken in several years, and it supports the agency’s strategic goal of optimizing patent
quality and timeliness. We began our audit activities at this early stage in the project’s lifecycle
to provide proactive, value-added feedback in an effort to identify potential issues that might
hamper the success of the overall project. We plan to monitor PE2E development and conduct
reviews at key points in the project’s life cycle.

                      Table 2. The Patent Application Process
           Pre-Examination                  Examination                  Post-Examination

     −   Receives application       −Assign to tech center          −   Collect issuance fees
         (paper or electronic       −Schedule for publication       −   Patent granted and
         format)                     18 months after filing date        published
     −   Collect initial fees     − Assigned to examiner’s
     −   Classify for routing        docket
     −   Check for completeness   − Search and examine
                                  − Issue office action:
                                     patent allowed or denied
     Source: OIG, adapted from USPTO documentation




 




                                                  1
 
U.S. Department of Commerce                                                                              Final Report

Office of Inspector General                                                                        September 29, 2011 



                                                               Background


In December 1982, USPTO submitted to Congress an automation master plan for a “paperless”
office. 1 Since then, the agency has made progress toward this goal, spending over $1 billion on
developing automated capabilities such as electronic filing of patents, examiner search systems,
and public access to patents on the Internet; however, it has not achieved a fully integrated,
automated patent process. 2

Past automation efforts have resulted in a combination of some four dozen aging systems that,
according to USPTO, are difficult to maintain, unable to meet the demands of a growing user
community and document database, and cumbersome for patent examiners to use. Examiners
must use 16 different system interfaces, documents must be cut and pasted to transfer them
between systems, and retrieving a patent application can sometimes take several minutes.

After the most recent attempt to more fully automate patent processing did not meet project
objectives, the Office of Management and Budget (OMB) placed that project, the Patent File
Wrapper, on its high-risk list in 2010. To obtain approval to proceed with development, USPTO
was required by OMB to submit an improvement plan addressing difficulties it has had with past
system development efforts. In response, in the fourth quarter of 2010, USPTO proposed the
PE2E project to replace the Patent File Wrapper.3 PE2E is a significant departure from previous
attempts to automate patent processing in that USPTO is using a modern system development
methodology and technical design that industry and the federal government have adopted as
ways to reduce development risk and build systems that can adapt to future needs.

Specifically, USPTO will use an Agile 4 system development method to build PE2E. The Agile
method reduces risk by dividing projects into increments that are deployed to end users
throughout the development life cycle, rather than using the traditional “waterfall” approach in
which all requirements are defined up front and all capabilities delivered at the end of the life
cycle. The PE2E technical design will be based on service-oriented architecture principles, 5
which increases the likelihood of developing systems that are adaptable to changing business and
regulatory requirements.


                                                            
1
   USPTO issued the automation plan in response to section 9 of Public Law 96-517 (the Dole-Bayh Act) passed in
1980 by the 96th Congress.
2
   GAO, Intellectual Property: Key Processes for Managing Patent Automation Strategy Need Strengthening, GAO
05-336, June 17, 2005, 2, 20. 
3
   USPTO submitted an improvement plan to OMB that described how challenges in past efforts to fully automate
patent processing will be addressed in the PE2E project. See USPTO, November 10, 2010, High Risk Project
Review, USPTO Patent File Wrapper (PFW) Program.
4
   The Agile methodology USPTO is using is known as the Scrum methodology. Scrum is an iterative, incremental
process that optimizes project predictability and controls risk by dividing large, complex projects into smaller, time-
limited, development increments that are easier to manage.
5
   A service-oriented architecture is an architectural style that organizes systems into a flexible suite of system
services that can be reused by multiple business functions. Examples of reusable PE2E services could include
searching for patents, retrieving patent applications, and checking the status of patent applications.


                                                                   2
 
U.S. Department of Commerce                                                                            Final Report

Office of Inspector General                                                                      September 29, 2011 



USPTO anticipates that this project will replace most, if not all, of the current patent processing
systems and will result in a robust, flexible, maintainable, and scalable solution. USPTO is
budgeting approximately $130 million through fiscal year 2013 to complete this project;
operations and maintenance afterwards is estimated to cost over $15 million annually.

To address technical and contract management problems of past automation efforts, USPTO
initiated a two-phased acquisition for the purpose of gaining technical input from industry and
acquiring an integration contractor. 6 Phase one, which was completed in March 2011, was a
competition among three contractors to build prototypes of proposed PE2E “core” architecture
and patent processing functions for USPTO to evaluate. USPTO stipulated that the contractors
build the core architectures based on service-oriented architecture principles and that the core
architectures should provide services for a simplified end-to-end patent process.

Phase two was to be the final selection of the PE2E integration contractor from those contractors
that passed the phase one evaluation. However, in mid-March 2011, USPTO decided not to
continue with this phase because, according to USPTO, none of the contractors met its
expectations of demonstrating sufficient technical competency and understanding of the business
priorities of patent processing. Therefore, USPTO decided to assume the responsibility of PE2E
integrator. This decision places USPTO in the lead role for the technical design and makes it
responsible for engaging contractors to augment its staff.

In keeping with recent OMB guidance 7 for agencies to split projects into smaller, simpler
segments that deliver demonstrable results, USPTO is developing the first release of PE2E for
deployment by the end of FY 2011. To meet this deadline, USPTO decided to reduce the scope
of the first release by foregoing the development of the core architecture for the end-to-end
patent process as originally envisioned. Instead, USPTO is developing a more limited
architecture to support a single patent process capability. The first release of PE2E will now
provide limited case management functions that allow examiners to (1) view a list of patent
application cases assigned to them, (2) view claims for each case, and (3) add notes to each case.
Development of the user interface for the first release of PE2E began in April, and development
of the architecture started in mid-June. USPTO has acquired a support contractor to assist in
developing the first release of PE2E, but has not selected a contractor for development of future
releases.

The first release of PE2E will be deployed to the Central Reexamination Unit, which consists of
about 80 users. USPTO indicated that PE2E releases being piloted by this unit will be deployed
to the much larger 6,000-member examination corps when the releases are mature enough to add
value to the examination process.

 




                                                            
6
   According to USPTO’s initial PE2E solicitation, an integration contractor supports the entire development

lifecycle and also manages sub-contractors.
 
7
   OMB Memorandum M-10-26. June 28, 2010. Immediate Review of Financial Systems and IT Projects, 2. 



                                                               3
 
U.S. Department of Commerce                                                                              Final Report

Office of Inspector General                                                                        September 29, 2011 



                                                               Findings


I.         USPTO Has Started PE2E Development Without Sufficient Long-Term Planning

USPTO has developed adequate short-term plans for the first release of PE2E; however, it
started development of the first release without a product backlog 8 that included high-level
requirements prioritized by business and technical value for the entire project. In addition,
although USPTO has planned for long-term technical needs such as a hardware and software
infrastructure that will be compatible with future PE2E development, USPTO has not defined the
high-level technical model of services to be implemented for the entire project. USPTO did not
perform these planning activities largely due to the limited time that was available to develop
and deploy PE2E functionality to users by the end of FY11. As noted by GAO, when confronted
with development deadlines in the past, USPTO has not planned sufficiently. 9 Unless USPTO
improves its current long-term planning, it will not have a roadmap that guides the project’s
building and deployment strategies. Unnecessary rework may result, leaving USPTO at risk of
not achieving its goal of fully automating the patent process in a timely and economical fashion.

A. PE2E Lacks Prioritized, High-Level Requirements in Its Product Backlog
Although USPTO had a product backlog for the first release of PE2E, the backlog did not
include prioritized high-level requirements for the entire project before development of the first
release began. Agile development is an evolutionary process that allows for a wide degree of
flexibility; that is, plans and requirements are expected to change. However, there is a common
misconception that long-term planning is not necessary when using Agile methods. In fact, the
first steps in Scrum, the Agile method USPTO is using—in particular for large, complex projects
such as PE2E—are to define high-level requirements for the entire project and prioritize those
requirements based on business and technical value in a product backlog. 10 The requirements are
then organized into a schedule of releases. Detailed planning occurs during development of the
release. When completed, each release is deployed to end users who then provide feedback that
is used to update the requirements in the backlog for future releases.

B. PE2E Lacks a High-Level Services Model
USPTO has not defined a high-level model of the services that will be included in the service-
oriented architecture for the entire PE2E project. Instead, USPTO is designing services only for
the first release of PE2E, the patent reexamination case management function. Best practices for
service-oriented architectures indicate that a high-level model of fundamental reusable services,
such as retrieving a patent application or checking its status, should initially be defined for the
entire patent process rather than for a limited set of requirements for a single application. 11 These
                                                            
8
  A product backlog is a list of all features, functions, technologies, enhancements, and bug fixes for the current and 

future product releases. The backlog items are prioritized based on risk, value, and necessity. 

9
  GAO, June 17, 2005. Intellectual Property: Key Processes for Managing Patent Automation Strategy Need 

Strengthening, GAO 05-336, 16.

10
    Cohn, Mike. 2010. Succeeding with Agile. Ann Arbor, MI: Addison Wesley, 242-249, 285. 

11
    See for example, Gartner Group, Twelve Common SOA Mistakes and How to Avoid Them, 

http://www.gartner.com/it/content/754400/754413/twelve_common_soa_mistakes.pdf (accessed June 23, 2011).
 


                                                                  4
 
U.S. Department of Commerce                                                                      Final Report

Office of Inspector General                                                                September 29, 2011 



services are defined by identifying technical and business functions that are repeated and are
therefore good candidates for reuse.

If USPTO does not define this technical design before development starts on the next release, it
could be more difficult to integrate PE2E into a cohesive system. While USPTO cannot be
expected to create a detailed technical design up front when using an incremental development
methodology such as Agile, it can still develop a high-level technical design that will be open to
change as more is learned during the development process.

II.         USPTO’s Acquisition Strategy for PE2E Is Not Adequately Defined

Now that it has assumed the role of PE2E integrator, USPTO needs to contract for technical
services to fill gaps in the agency’s technical experience and PE2E project staffing. In mid-May,
USPTO approved an acquisition plan for acquiring contracting resources for PE2E. However, the
plan does not adequately describe the strategy for acquiring these resources or how USPTO will
manage acquisition risks when the current contract for the development of the first release of
PE2E ends in November 2011.

Although USPTO’s acquisition guidelines recommend developing an acquisition plan, USPTO
did not issue a plan for the initial two-phased acquisition. Further, the current plan, issued in
May, does not describe the acquisition strategy for future PE2E development, specifically (1)
whether USPTO is seeking long- or short-term engagements with one or multiple contractors, (2)
how it will acquire contracting resources (e.g., the contracting vehicle, capabilities sought, and
evaluation criteria), or (3) how it will motivate contractors through contract incentives to achieve
high performance.

In addition, the plan does not address how USPTO will manage acquisition risks. For example, it
does not describe how USPTO will minimize the time needed to acquire new contractors so that
long project delays are avoided. This became an issue when USPTO decided in March 2011 to
act as the PE2E integrator; it was unable to acquire a support contractor to develop the
architecture for the first release of PE2E until mid-June. Further, because USPTO has indicated
that its procurement office is understaffed, the plan should outline how the office will manage
solicitation and administration of multiple contracts. The plan should also provide solutions for
potential problems, such as difficulties USPTO has had in the past with managing multiple
contractors working on a single deliverable.

III.          USPTO Should Improve Oversight of PE2E Development

The Clinger-Cohn Act of 1996 requires agencies to establish effective and efficient capital
planning processes for selecting, managing, and evaluating the results of all of its major
investments in information systems. 12 To address this requirement, GAO has developed a three-
phased approach for capital planning and investment control of IT investments: selecting IT
projects to invest in, controlling the development of the project, and evaluating whether


                                                            
12
  40 U.S.C. § 11303(b) (2) (A) (2011), Public Law 104-106, Division E, “Information Technology Reform Act,”
February 10, 1996. 


                                                               5
 
U.S. Department of Commerce                                                                           Final Report

Office of Inspector General                                                                     September 29, 2011 



deployed technologies are meeting mission goals. 13 USPTO has established an oversight board,
the Information Technology Investment Review Board (ITIRB), which recommends approval or
disapproval of IT project funding, receives project status reports, and periodically reviews
project progress to comply with Clinger-Cohn. USPTO has also established a governance
structure for PE2E that decides the direction the project should take. However, USPTO needs to
reinforce its procedures for controlling the development of PE2E.

A. Key Milestones and Conditions for Special Reviews Have Not Been Established
USPTO has not updated the ITIRB key milestone review schedule in the PE2E business case 14
as required by its oversight policy. At these reviews, the ITIRB should evaluate whether USPTO
is prepared to move forward to the next phase of the PE2E life cycle. Specifically, the ITIRB
should (1) ensure certain criteria are met to move the project forward, such as whether adequate
staff resources are available or adequate planning has been done; and (2) compare project
performance against planned schedule and cost, as well as other performance measures, such as
the quality of the deliverables. Federal agencies with mature oversight practices, such as the
Department of Defense and National Aeronautical and Space Administration, have established
processes that incorporate key milestones and criteria for senior executives to evaluate IT
investments. Also, recent studies—for example, a 2010 review performed by the National
Research Council of the Department of Defense’s information technology acquisition—have
confirmed that key milestone reviews are important for projects, such as PE2E, that are being
developed using Agile development methods. 15

Additionally, USPTO has not adequately defined project conditions that would require
convening special executive oversight reviews, although a federal best practice. Such reviews are
triggered when a project’s performance varies from the project planned schedule, cost, or other
performance measures by a predefined amount, or when a serious risk is realized. For example,
the Veteran’s Administration’s new oversight policy for Agile development projects has
established a threshold for taking special actions: special oversight reviews are triggered if
deadlines for three consecutive incremental system releases have been missed. 16

B. PE2E Oversight Would Benefit from Independent Expert Input to Milestone Reviews
PE2E is essential to improving patent processing. However, oversight of the program will result
in numerous challenges for USPTO. PE2E is one of the most ambitious and complex multi-year
IT investments USPTO has undertaken in several years, and the agency does not have recent
experience overseeing large IT projects such as PE2E. Oversight will also have to adapt to the
Agile development methodology USPTO is using to build PE2E because it has different life
cycle phases than traditional development methods do.


                                                            
13
    GAO, March 2004. Information Technology Investment Management, A Framework for Assessing and Improving

Process Maturity, GAO-04-394G. Washington, D.C., 8.

14
    At USPTO, capital investment business cases (the rationale for initiating a business project or task) are 

documented in a Capital Investment Decision Paper.  

15
    National Research Council of the National Academies. 2010. Achieving Effective Acquisition of Information in the 

Department of Defense. Washington, DC: The National Academies Press. 

16
    Department of Veteran Affairs, March 2010, Project Management Accountability System (PMAS) Guide.



                                                         6
 
U.S. Department of Commerce                                                                         Final Report

Office of Inspector General                                                                   September 29, 2011 



Given these circumstances, it would be beneficial for USPTO to seek independent expert advice
on technical and project management—another federal best practice—for PE2E milestone
reviews. Because independent experts do not have vested interests in projects, they are more apt
to provide unbiased advice. 17

Recommendations

1.	 Before development starts on the next (second) release of PE2E, the USPTO Director should
    direct the appropriate USPTO officials to improve PE2E planning by developing

              a.	 a description and schedule of releases based on prioritized high-level requirements for
                  the entire project, and

              b.	 high-level designs for the service architecture for the entire project.

2.	 The USPTO Director should direct the appropriate USPTO officials to update the current
    acquisition plan before seeking contractor support for future PE2E releases. The plan should
    describe

              a.	 the strategy for acquiring contracting resources that includes the overall acquisition
                  approach, the process for acquiring, and how it will motivate contractor performance,
                  and

              b.	 how USPTO will manage risks to avoid development delays, overcome limited
                  resources for soliciting and administering multiple contractors, and successfully
                  manage multiple contractors.

3.	 The USPTO Director should direct the appropriate USPTO officials to improve oversight of
    PE2E by

              a.	 updating USPTO oversight procedures for PE2E by establishing

                      •	 the key milestone oversight review schedule,

                      •	 criteria for evaluating project progress at oversight reviews, and

                      •	 thresholds for convening special oversight reviews

              b.	 seeking independent expert advice on technical and project management for input
                  into milestone reviews and defining the rules of engagement for independent
                  reviewers, including when advice will be sought and access given to project artifacts
                  and personnel.

                                                            
17
 NASA describes independent reviewers as “unbiased and outside the advocacy chain of the program/project.” See
NASA, Effective Date: November 03, 2008; Expiration Date: November 03, 2013, NASA Procedural Requirements:
NASA Information Technology and Institutional Infrastructure Program and Project Management Requirements,
NPR 7120, 7-8. 


                                                               7
 
U.S. Department of Commerce                                                             Final Report

Office of Inspector General                                                       September 29, 2011 



                   Summary of Agency Comments and OIG Response
 
We reviewed USPTO’s official response to our draft report dated September 21, 2011. In its
response, USPTO provided background on the PE2E project, including project status,
development approach, and challenges. However, USPTO also incorrectly characterized our
review as an “incomplete snapshot of a single PE2E development cycle.” The objective of our
review was to assess USPTO’s readiness to successfully manage PE2E; as such, our work
provides the appropriate basis for assessing factors that will have an impact on USPTO’s
readiness. These factors include the long-term planning, acquisition, and project governance for
PE2E in preparation for initial development. Such fundamentals are important to PE2E in order
to avoid excessive rework, obtain needed resources, and effectively and economically meet the
project’s overall objectives.

USPTO’s specific comments about the findings and recommendations are noted below. USPTO
also provided technical comments separately, which we have addressed in the report where
appropriate.

    •	 Recommendation 1: USPTO concurred with this recommendation. It noted that it
       needed to explicitly define long-term development goals, a schedule of releases based on
       prioritized high-level requirements for the entire project, and high-level designs for the
       services architecture and database model.

    •	 Recommendation 2: USPTO concurs with this recommendation and agreed to identify,
       schedule, and document appropriate procurement vehicles and procurement plans to
       facilitate continued development needs of PE2E for FY2012.

    •	 Recommendation 3: USPTO concurs with this recommendation. USPTO has stated in
       its response that it has established milestone oversight review schedules and triggers for
       further reviews. It also agreed to continue to refine its review criteria and processes for
       conducting independent reviews, as well as engage independent experts to advise on
       PE2E development.




 



                                                 8
 
U.S. Department of Commerce                                                            Final Report

Office of Inspector General                                                      September 29, 2011 



                    Appendix A: Objectives, Scope, and Methodology



Our audit objectives were to assess the U.S. Patent and Trademark Office’s (USPTO’s) readiness
to successfully manage the Patent End-to-End (PE2E) project by determining the adequacy of its
acquisition process and methodologies as well as the project’s governance. The scope of this
audit initially included phases one and two of the PE2E project; specifically, those activities
performed at USPTO’s Alexandria, Virginia, headquarters. However, as the approach and scope
of the project changed, we adjusted our audit scope to include those changes.

Our audit methodology included interviewing key executives and managers, reviewing
supporting documentation, and walkthroughs of the acquisition process, methodologies, and
project governance. Specifically, we assessed the following:

   •   acquisition guidelines,

   •   project management methodology,

   •   program management office structure and staffing,

   •   project status reporting, and

   •   risk management and executive oversight.

This audit was performed under the authority of the Inspector General Act of 1978, as amended,
and Department Organization Order 10-13, dated August 31, 2006. We conducted the
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. 




                                                 9
 
U.S. Department of Commerce                                                                                    Final Report

Office of Inspector General                                                                              September 29, 2011 



                           Appendix B: Response to OIG Draft Report




                                U:l"ilTIDSTA.n:s PATENT AND 'lltA.Dt:MARX OlTICE




                                                                       ep1ember 21, 20 II



           MEMORA."''DUM FOR Allen Crawley
                             ~islant Inspector Geneml for Systems Acquisition
                              and IT Securit}•

           FROM:                       John B. Owens, n         ~
                                      Chier Lnformation omckZ'
           SUJJJEcr:                  RespoDSIC lO Drnfl Report: " l'aJetu End-io-End Planning
                                      and (}.·~rsiRht Nud to Be Srretrgthent-d zo Rtuluce De~'tlopmem
                                      Risk" (August201 I)


           E:nt:uth·e Summ.ry

           The United States Patent and Trademark Office (U PTO) awreciates the effort that rhe Office of
           the Inspector General (I G) bas made in ns:sessing the IDlllUij;!mlCnt methodologies and w:qui:silicn
           of the Patent F.nd·urEnd (PE.2E) project. The tiflo1 phase ofPE2E contlnu~ to ddiver solid
           results on time and within bud~ despite signi.licnnt chtlllenges, drn10nstrating tM1 the
           U PTO's approach is succeeding beyond cxpcctations. Ne\-ertbeless, e¥e.ry project has room.for
           improvement. The USPTO has can::t:ully ronsidrnxltbc throe n:corruneodations made in the
           draft report and conc-Urs witb lhe recommendation .
           Baekmund

           PE2E h3s mlKI.e tmnendous prugre!.ll. Rele&.e 1.0 is on chc:dulc ~too within budgt1 d~it.c such
           challenges as a protest of the planned procurement vehicle, budgetary consmaints imposed by
           multiple continuing l'eSOlutions as weU as the final. budgctJuy agreement, the emergent need to
           brinA dcvelopmcllt in-house L.u ensure !hat PE2E 0)£1£ts U P1'0 business needs. the adoption of a
           "new•lo-tbc-Fedcm.l-Govcmmcnt"' Sofl:.....'llfl: Development Life Cycle (SDLC) based on Agile
           development methodoJog~es, tbe introduction of Agile:: d~lopment methodologies inLo our
           softwn.re dcwlopment 1nd itmdg~mry processt's, and the introduct1on of a complc:tely new
           lcchnoJogy SUid.: ooruimng of industry-leading software plad'omu and set\'ices. The USPTO'
           ~ricn.ce ovclllOming these challenges demonstrates ttw PB2El is en the path to success.
           Sub~.uenl m.ilestoo.es rcmarn on track to build on lhe fir.;t dellvcmble. We believe the success
           cflhe ftrSt deliverable is a ttoog indication ofloog-tcrm. PE2E health.




                                                            10
 
U.S. Department of Commerce                                                                                         Final Report

Office of Inspector General                                                                                   September 29, 2011 





                                                                2

            The l:rupc'd.Ot Gmc:rnl's ~cw ccmcludc:d s we were trmi.Jitionmg fmm the pl.mning plm.~~e 10
            implmtentalion .ofPE2E LO. Thus the review captures an incomplete snapshot of a single PE2E
            de\'tlopmmt eyele. Since work on P£2 · has been ongoing.lbc USPTO was alre-.K!y in the
            proass of exccutang several of the report's reoommcndWon~ b}• the l.lnw the dtafi repon wu,s
            is!illed. pecificlill). lhe LSJJ1'0 has del--doped a detailM m::er Sl0ry backlog for FY 2012
                                                                                4




            de\'e'loptnQit. is ocmtinuing work on a plan for solution pnx:uremct1t for b: FY 20 12
            d'chvernbl      nd is ~·en &ina indtpendetlt ClfPC1U that b.lvc ~n in\ l\·cd with cnrlic: stq
            ofPE2t. pJ.mMirlg and de\:eloprnenx.
            Before the 10 s!tWd ils fieldwork. Ihe U PTO enauicd in !>Cries of OMB-5PCJ11Sorcd TcchSI.d
            ce\1ews of the t'D£ proJect with the Joed~rnl Cb.irflnfomwlon Officer(CJO), Vl\iCl Kundru,
            and his slaff~ TecbStat reviews and their reoo~oo.s are pan of the CIO's 25-point plan
            for improvina IT in lhe Fc:dcral GovemmcoL 1 The: top n:conuncndations ofthe:x ~ v.-en::
            I) hire a Jcchcnted program m,anager to be fully inch rgc of PC2E, 2) gel stakeholder buy-in
            before beginning, 3) use wircframcs and other fOims of user centEred design to create the design,
            and 4) build a usable subset of func:rionality quickl)' and £t!l r=ill'lefS usina il for real Yo'Ocil o.s
            SOOll tlJI pclliiblc:, The U PTO and OMB agn:cd to tu.rg~ hnving w.flw~ in production by the
            end ofFY 2011.

            The P£2E project ~u, met alllhe$ aoal • The U PTO mrtd • drdic:utcd proif8J1111W111Cf for
            PE2E in .February 201 1. The~ researdt activities achieved widespreM buy-in with the
            iruemal stakehol<kt community including the PI!Cnt Office Professiolli!l Association, lhc union
            ~nlin& patenl exwrunen. Wardrwn.cs UL'Id user !ttories describe \ht d~slps from a uscr­
            cen•~d ~l.t"-e, and PE.2J!'s (~~St d~laverable will be m production at the t11t!.of I'Y 201 t
            The USPTO's respotlse to each TeCOmmcndation follo\\ •



            I G R~e(J~ndllllDtt (1): Befoo:! development statU on the neJCt (:,.¢oond) release ofPE2E,Ihc
            USPTO Dtrec:tor Jhould d~t the approp:riote U PTO offic:ia.ls to impm\le Pm piiWWlg by
            de'\--elopi!'lg a) a description and scbedule of releases based on prioritized high-level requiremMtS
            for the en~ project; and b) hig.b-lcvd designs for lhc: snviccs an::hi locturc for tbc en~ project.

            USPTO Rt1pons~:
           The USPTO c:oncws with Ibis reaJmmendalion. From lhC' beginnin[!:, PE2E has cmpbasizcd
           long-tenn. hiib·IC"d plllllllinj llJ a key 10 ensure a usable, integJiled end rcsuJL Many hlgh·
           le~el plans ~ere expliciUy rec:~rdod arul con iden:d by Lht 10 dunng thcu rcvic"'. In tbc:ir
           report, the: IG idcolifics areas when: certain aspects of~lc:vel planning V.'el'C not recorded.
           11us plrumm,g was pe:rfoll'IICd by U I'TO implidtly rather than txplicJtl)'. The U PTO ~grees
           llm1 nmkins c:cruriu ott11ae plans more ~licil Cllll ui d PE2E dcvclo)llDCDt. According)), we are
           de,-cloping more written user stories to cx:pJicitly define long-tmn de\'elopment goals. a
           schedule of releases based on prioritized high·le"t-el requirements for tl1e entire project., .and
           explicit hi~lcvcl W:siJ!i!ti for tlte !ICtvice iii'Chitccturc and dotabasc model.




                                                               11
 
U.S. Department of Commerce                                                                                            Final Report

Office of Inspector General                                                                                      September 29, 2011 





                                                                3

           B~fOR the USPTO began ]>£!£ d~"~lopmcnt. it cnp.sed In ~em montns ofwcr research to
           develop nnd ~· IU.Ille lhree immlctive proto~ th.llt defined r:roni~ inlerf3Ce!l formd·lo-ctld
           p«tall e."<amiu.:ltion 501utioJU. Tile • PTO 50licitcd .n"aluatiOillS of the mulq prototypes livm
           paten1 examiners and developed extensive multimedia uainina material co · t with llle
           evaluation. The U PTO rec::eh'cd: and analyz.cd more lhan 2,000 examiner responses., allowing
           the U PTO 10 settle on one prototype 10 represent !he hig_h - l.e~>el, long-range funclio.Did
           reqWn:m.e nb of lhc PE2E. &)stem.

           The ~elected livnt-md prototrpe fuJJ)' documents high-level. user-centered. functional
           rcq~~nts for Chc entire f~e..ble swpe of the PE2E :systP:III. T'hic USPTO uses sm:~t:s
           of d1e prototype to pomay the functiom.l scope of l'mljor PE2E's funcuonal areas. Furthermore,
           the prototype bas provided a CIOilCretc basiS for the USP'l'O 10 CJI'ail USCT-slot)' backlogS for
           FY 201 1 zmd fY 2012 with can:M attention to the ~cllKIIll! oflong-range functicmality.
           Tlli.i provld !he source oftht U.'ii:f-:!ih>f)' ~klog for USP1 o ·s. \.ICXle$Sf\ll rY 2011 rdeliS~. ~
           siablc high-level baclJog ckfll'ICd for I?Y 2012 Pn2r development, and t11c long·tllngc bnckloga
           to be c:n:utcd in compliwlcc with thi! ~tornmcndatian.
           111ese iUust:ranve uses ofwell<tafud prototypes thillembod)' user wnsensU! 10 guide lo!'l&-terrn
           c.k~oe!Qpment plaru. rqm:senl a sumtmtial improvemtnl over ow previous efforts to plan
           tecJmology projects. Such prototypes are complementary to ~a~-onty representlltions of
           fi.ulC.bQJ\3] needli pr-o\ided b. U$c:r 510nC!4.

           /G Rn:o'"mn~dario" (1): The: USPTO Di~tor iOOWd di.rect the appropriate USPTO officials
           to update the current KqUi'litioo ptiUl before wdi na concrac:tor SUJ"PP"f'l for fut:ure PF2f' rei~ ,
           The pbm should describe: a) the straqy for aQquiring conuxting resources that includes tbe
           overall .ac.qms.~tion arproach, me process fo.r acquiri.n,a. and how iL v.lll motJvaxe c~nuattor
           performance:; and b) bow u PTO \\<ill manage risks to avoid oo·oJopmcml delays, 0\"Crcome
           Umitrd resouru!l for soUciting and admtni.skftng muluple contntctors, Mel t~ttessfull) m~~
           multiple conttactors.

           USPTO R~sponst!:
           The U PTO concurs ~th this recommendatron. Donna de-.elopment of the first deliverable, the
           USPTO dealt \\ilh all of tbe cballc:nges described in the Background scetion of this doc:umenl.
           Not only did lbc USYrO successfully define a stmtegy for acquiring md mauaging contracting
           n;so\lf(es, but E1Uo ~U£Ces.sfully Qverotmc slgnilicnnt oh tucl~ '"hkh po:scd iuh!t.aou.al rim 1.0
           1he dc:\'tlOpnl!ml schedule, including se\'cral identified by tbe IO'l! r.ccond l't'COI!IID.imlbtion,
           Wilh this cxpcricnoc in hand. the U !PTO is confident that our acquisition stmegies going
           forwartl\.\111 meet or surpass the IG's recommendatloos. The knowledge g~ will be
           sufficaenlly doeumenlcd in written PE2E plans as nccdc:d. ln particular, the U PTO '4ill
           ideDhfy, schedule, and dOC'I.I'l!ktlt upproprlat~ proc.urttth!1H .. duel e.~ ADd pro.:.ure:mcnt pbn.5 to
           facilitate continued de, elopmcntneeds of PE2.1! ror rY 20 12.

           TG Rn:ommmJ4timf (3): 1k U PTO Dirce'tor sbauld dired: the appropriat~ USPTO officials
           Lo improve O\'ersigln of PI::2E by: a) updating USPTO oversight proced~ for PF.2E by
           c:s~ tbc: key mile~ oversight Kvicw schedule, criteria for evaluatmg project progn=ss
           at o"-ersigbt reviews, and thresholds for convening ~inl o\ersight mrlews; and b) steklng
           independent expert aJ..·tc~ ou kchnieal nnd project m.magcmcnL, Mtch as inpl.lt into milc:stow:




                                                                12
 
U.S. Department of Commerce                                                                                             Final Report

Office of Inspector General                                                                                       September 29, 2011 





                                                                4

           rcviC'Io"lllilld defllling lbi niles o f engagement for inclqxnd'cnt rcvit\\etl'l, lncluc.lrng wbm   tW'i1C:C
           w:ill be sought and aca:n gi~ to projecl anifacts IIOd pcrsonllCL.

           US~TO R f!SJIC'm~:
           Th~: USPTO conci.IA with tbb        rcwmmc:odalion, t11ld bas c:.tlblisbcd m.ilmonc o\•crsigbt review
           schedules I!.Dd ttlggc:rs for flll!tber rc:vicws. Tbese includo momhly reviews by the Office of
           Ma.mag(IIlcllt and DI.Mfget (0 W), q~Wtedy re'Views by lhe t... PTO's CapiiBJ Plw:ullng und
           ln"esunent Control Review Board, qu;mcrly re-vie~ by the P&lent Public Advisory C«nmittee
           (.PPAC), biannual reviews by me USP']'O' s IJ1Cormmo11 Tedmology ln\lesuneru Reul!"t\' Board
           (IHRB}, and auditS by the Department of Commerce Office of Ln_spc:cror General and tbe
           Go"1:mlllcnl AccOUDIIIbility Office. The USPTO will continue to rdine its review c::nteria and
           the processes for cooduc:tin,g independent reviews.

           Tbe USYrO bcl il::ves in tile value ofirldepeadctlt technical and nlllJI3&mletlt ~as a ke) 1.0
           PE2E's succ:css.. Early in tJx PE2E dc:vclopmc:nt pi'OCCIS, the U PTO retained a worlcklass
           expert in busines.<~ ru'ChitecWMS with 10 years· experience deliYering IT tn ml)or corporation$ to
           review and 111hi.sc OlJ PE2F Key PE2E personnel wa-c alo;o ~d ~ificaHy for tllciT privatt­
           sector e:q>ertiw wi1h tNilding IT S·)'Slans. The U PTO has alsc sought expen ad..,<ice fro m
           PPAC 1111d liSPTO' ffiRB II will continue acekina oppm1unitic:s for ind!:pC'Il(lcnt cxpcru lo
           oo'-""ise
                  on PE2E dcvclopmcnt.. For cumplc, the         u no   intmds to ~-cngO£C the: wortd~ehw
           expert in bt.ui.ness nrchitcctwes for further indcpelldent management ud tcchnlcnl advice.

           Conc-1u h>n

           Tile USPTO gi!ln tlwOOI the Asslsmntlrupector Gmeral for Systt'rru. Acqul !.ion and n
           Seeunty for the report. Wr: are workang d iligc:::ntly ro meet or exceed the roe<mtmendations in
           lWs lq)Ort, aod we will gratdully consider funlu:r s~stions as \'Ve move forward to ensure chat
           the J?E2E project fulfills the strntegic goaJs and needs oflhe Un.lted Srm.es Parmt and Tm<lernuk
           omce.




(USPTO-00114) 




                                                               13
 
